Audit Report




OIG-12-058
SAFETY AND SOUNDNESS: Failed Bank Review of Fort Lee,
Federal Savings Bank
July 12, 2012




Office of
Inspector General
DEPARTMENT OF THE TREASURY
                                      DEPARTMENT OF THE TREASURY
                                            W ASHINGTON, D.C. 20220


                                               July 12, 2012
     OFFICE OF
INSPECTOR GENERAL




            OIG-12-058

            MEMORANDUM FOR THOMAS J. CURRY
                           COMPTROLLER OF THE CURRENCY

            FROM:                  Susan Barron /s/
                                   Director, Banking Audits

            SUBJECT:               Failed Bank Review of Fort Lee Federal Savings Bank, Fort
                                   Lee, New Jersey


            This memorandum presents the results of our review of the failure of Fort Lee
            Federal Savings Bank (Fort Lee) located in Fort Lee, New Jersey, and supervision of
            the institution by the former Office of Thrift Supervision’s (OTS) and Office of the
            Comptroller of the Currency (OCC). OTS regulated Fort Lee until July 21, 2011,
            when OCC assumed regulatory responsibility for federal savings associations
            pursuant to P.L. 111-203.

            Established in 2001, Fort Lee was an insured federal savings association with stock
            ownership. It was a full service community bank that operated from a single office
            located in Fort Lee, New Jersey. OCC closed Fort Lee and appointed the Federal
            Deposit Insurance Corporation (FDIC) as receiver on April 20, 2012. As of
            December 31, 2011, Fort Lee had approximately $51.9 million in total assets. As
            of April 30, 2012, FDIC estimated the loss to the Deposit Insurance Fund to be
            $14.0 million.

            Because the loss to the Deposit Insurance Fund is less than $150 million, as set
            forth by section 38(k) of the Federal Deposit Insurance Act, we conducted a review
            of the failure of Fort Lee that was limited to (1) ascertaining the grounds identified
            by OCC for appointing the FDIC as receiver and (2) determining whether any
            unusual circumstances exist that might warrant a more in-depth review of the loss.
            In performing our review, we (1) examined documentation related to the
            appointment of FDIC as receiver, (2) reviewed OTS reports of examination for the
            5-year period before the bank’s failure, and (3) interviewed OCC personnel. We
            performed our fieldwork during April and May 2012.

            We conducted this performance audit in accordance with generally accepted
            government auditing standards. Those standards require that we plan and perform
            the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
OIG-12-058
Page 2

our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objectives.

Causes of Fort Lee’s Failure
OCC appointed FDIC as receiver based on the grounds that the bank:
(1) experienced substantial dissipation of assets or earnings due to unsafe or
unsound practices, (2) was in an unsafe and unsound condition to transact
business, (3) incurred or was likely to incur losses that would deplete all or
substantially all of its capital and there was no reasonable prospect for it to
become adequately capitalized without federal assistance, and (4) the bank was
critically undercapitalized and failed to submit an acceptable capital restoration
plan.

The primary causes of Fort Lee’s failure were excessive concentrations in
commercial business loans and indirect subprime auto loans,1 weak credit risk
management, deficient credit administration practices, and ineffective board and
management oversight. Despite repeated criticisms by OCC and the former OTS,
Fort Lee’s board and management did not adequately address weaknesses related
to loan underwriting, problem loan identification and, the allowance for loan and
lease loss level and methodology. As a result, the bank experienced excessive
losses in its loan portfolio, high levels of classified assets, high provisions for
allowance for loan and lease loss, and the erosion of capital, which ultimately led
to Fort Lee’s failure.


Conclusion
Based on our review of the causes of Fort Lee’s failure and the grounds identified
by OCC for appointing FDIC as receiver, we determined that there were no
circumstances surrounding the bank’s failure that would necessitate an in-depth
review. In making this determination, we took into consideration that the federal
savings association functions of OTS, Fort Lee’s regulator until July 2011,
transferred to OCC. We provided a draft of this memorandum to OCC management
for comment. In its response, OCC stated it that it agreed with our conclusion as to
the causes of the failure of Fort Lee and that it had no concerns with our
determination that an in-depth review of the bank’s failure is not warranted. The


1
 Indirect subprime auto loans are loans to borrowers with poor a credit history that are purchased
by banks from automobile dealerships. These loans are generally underwritten by the dealerships
and funded by the bank. The loans were closed in the bank’s name and serviced by the bank.
OIG-12-058
Page 3

response is provided as Attachment 1. A list of the recipients of this memorandum
is provided as Attachment 2.

We appreciate the courtesies and cooperation provided to our staff during the
audit. If you have any questions, you may contact me at (202) 927-5776 or Amni
Samson, Audit Manager, at (202) 927-0264.

Attachments
         OIG-12-058

       Attachment 1
Management Response
                                                       OIG-12-058

                                                     Attachment 2
                                                       Distribution




Department of the Treasury

   Deputy Secretary
   Office of Strategic Planning and Performance Management
   Office of the Deputy Chief Financial Officer, Risk and Control
      Group

Office of the Comptroller of the Currency

   Comptroller of the Currency
   Liaison Officer

Office of Management and Budget

   OIG Budget Examiner
